AUDIT OF BORROWER ELIGIBILTY FOR GULF

         COAST DISASTER LOANS 


                Report Number: 9-09

             Date Issued: March 31, 2009 





                  Prepared by the 

            Office of Inspector General 

         U. S. Small Business Administration
                                                                                                 2





           U.S. Small Business Administration
           Office of Inspector General                         Memorandum
    To: 	 Steven Smith, Chief, Executive Office of Disaster         Date:   March 31, 2009
          Strategic Planning and Operations

          Herbert L. Mitchell, Associate Administrator
          Office of Disaster Assistance

  From: 	 /s/ original signed

          Debra S. Ritt 

          Assistant Inspector General for Auditing 


Subject: 	 Audit of Borrower Eligibility for Gulf Coast Hurricane Disaster Loans, Report
           No. 9-09

          This final report summarizes the results of our audit of Borrower Eligibility for
          Gulf Coast Hurricane Disaster Loans. The objective of the audit was to determine
          whether the Small Business Administration (SBA) had controls in place to prevent
          ineligible applicants from receiving disaster loans for properties that were not their
          primary residences.

          To address the audit objective, we reviewed 35 sampled disaster home loans to
          Grand Isle, Louisiana applicants that were referred to us by our Investigations
          Division. These loans were disbursed between October 2005 and October 2008.

          To determine whether individuals received loans for properties that were not their
          primary residences, we compared address information contained in the sampled
          loan applications to residences claimed on Federal income tax returns, and
          reported in Louisiana voter registration and homestead exemption databases. We
          also reviewed entries in SBA’s Disaster Credit Management System (DCMS) to
          determine whether SBA adequately verified applicant residences reported in loan
          documents as required by Standard Operating Procedure (SOP) 50 30 5, which
          was in effect at the time that the sampled applications were processed. We also
          interviewed Office of Disaster Assistance (ODA) staff assigned to the Fort Worth
          Loan Processing and Disbursement Center (PDC) to gain an understanding of the
          loan approval process for borrowers who owned multiple properties.

          We conducted the audit between June and December 2008, in accordance with
          Government Auditing Standards as prescribed by the Comptroller General of the United
          States.
                                                                                   2



BACKGROUND

In 2005, Gulf Coast Hurricanes Katrina, Rita and Wilma caused more than
$118 billion in estimated property damage. Many of the disaster victims were
eligible for SBA physical disaster loans. As of November 2008, approximately
$6.6 billion in loans had been disbursed to assist these disaster victims.
Individuals are eligible to apply for a home loan if they own and occupy their
primary residence and have suffered a physical loss to that residence. Home
owners and renters can apply for loans for personal property losses.

Based on SOP 50 30 5, Disaster Assistance Program, 1 loan applicants are
required to complete a Disaster Home Loan Application (SBA Form 5C) to begin
the loan application process. Applicants are instructed to list any properties they
own or rent on their applications. SOP guidance states that although some
applicants may have more than one residence, applicants may receive a home loan
for only their primary residence. If the applicant owns more than one property,
loan officers must verify whether the property is the applicant’s primary residence
by checking homestead exemption and voter registration databases, among other
sources. The homestead exemption database is a registry maintained by the state
of Louisiana, which lists the addresses and property values of all homes registered
within the state. While these sources may not definitively show proof of a
person’s primary residence, they are good indicators of where borrowers reside the
greatest percentage of the year. Borrowers are also required to complete a Tax
Information Authorization Form (IRS Form 8821) and give SBA access to their
Federal income tax filings to verify income.

RESULTS IN BRIEF

ODA did not have adequate controls in place to ensure that borrowers were
eligible to receive disaster home loans. Specifically, of the 35 loans in our sample,
29, or 83 percent, were approved without adequately verifying whether the
property was the applicant’s primary residence. Further, ODA did not obtain
proof of ownership for one loan applicant. A list of the 29 loans is provided in
Appendix I.

We found that 8 of 29 properties may not have been the applicants’ primary
residences. ODA had disbursed $683,200 on these 8 loans. Because the 8
applicants potentially made false claims, we have referred these loans to our
Investigations Division.



1
    This SOP has since been replaced by SOP 50 30 6.
                                                                                   3



In determining primary residence eligibility, ODA did not follow policy guidance,
which directs loan officers to check relevant homestead exemption databases,
voter registration records, or Federal tax returns when a residency is questioned.
Instead, ODA reviewed the National Emergency Management Information System
(NEMIS), maintained by the Federal Emergency Management Agency (FEMA),
which shows only occupancy data, and may be dated.

While checking sources listed in the SOP is more reliable than NEMIS, it is more
time-consuming and may not provide conclusive evidence of a borrower’s primary
residence. Consequently, ODA will need to identify a more reliable method of
confirming applicant primary residency.

Finally, one borrower received a Housing and Urban Development (HUD) Road
Home Grant for approximately $19,000 after he received an SBA disaster loan for
$38,900, resulting in a duplicate benefit.

We recommended that ODA instruct loan officers to follow the SOP requirements
for residency verification until a revised method can be developed, and take steps
to revise its current procedures for verifying an applicant’s primary residence,
including considering the use of either Choice Point or other credit bureau
databases. We also recommended that ODA request remittance from HUD for the
Road Home Grant amount that duplicated disaster benefits awarded under the
SBA loan.

Management disagreed that 83 percent of the loans were not properly reviewed to
justify the primary residence determination. Management also believes that 17 of
the 29 loans the audit identified as lacking adequate verification of the applicant’s
primary residence were appropriately verified, and provided a spreadsheet
(Appendix V) citing reasons for its position. We believe ODA inappropriately
relied on NEMIS data, which is not sufficient for making primary residence
determinations. Further, the additional sources that ODA listed in Appendix V
were identified in response to the report, and not done at the time of loan approval.
Therefore, the report is accurate in stating that ODA did not adequately verify
applicant residency needed for eligibility determination at the time it approved the
17 disputed loans.

Finally, management concurred with our three recommendations. Because
management did not identify specific actions it plans to take on the first and
second recommendations, or provide target dates for implementation, we do not
consider management’s comments to be fully responsive to any of the
recommendations.
                                                                                    4



RESULTS

ODA Did Not Adequately Verify Applicant Residences on 83 Percent of the
Loans Reviewed

ODA did not have adequate controls in place to ensure that properties approved
for loans were the applicants’ primary residences. Questions about residency
usually arise during loan closing when the applicant identifies other properties that
he/she owns that will be used as collateral for the loan. When there is a question
of residency, SOP 50 30 5 requires that various sources be checked to determine
which property is the applicant’s primary residence. These sources include the
homestead exemption database, voter registration records, or Federal tax returns,
among other sources. Despite this requirement, the audit disclosed that ODA did
not adequately verify applicant residences on 29, or 83 percent, of the 35 loans
sampled.

For 21 of the 29 loans, applicants listed multiple properties during the loan closing
process. A comparison of the addresses claimed on these 29 loan applications
against those claimed in voter registration databases, tax filings, and homestead
exemption databases revealed that 8 properties may not have been the applicants’
primary residences. For example:

   •	 One borrower, who applied for a loan in 2005, listed his primary residence
      as Grand Isle, Louisiana and reported two other properties within the state
      that were located in Gretna and Luling. However, the borrower was not
      listed in the homestead exemption database for Grand Isle, indicating that
      he may not have had a primary residence there. Additionally, the address
      reported on the borrower’s 2004 Federal tax returns differed from that
      listed as the primary residence on the borrower’s loan application.

   •	 Another borrower, who owned three properties, received a loan in 2006,
      although the damaged property listed on the loan application was not
      reported in homestead exemption and voter registration records.
      Furthermore, the address on the borrower’s 2005 tax returns was different
      than the address of the damaged property listed on the loan application.

Because borrowers for the eight loans may have made false claims in applying for
their SBA loans, we have referred these cases to our Investigations Division for
potential criminal prosecution.

Although ODA loan officers were aware of the SOP guidance for verifying
questionable residences, they did not believe that the procedures outlined in the
SOP were mandatory. Instead they said it was ODA’s practice to use NEMIS,
                                                                                      5



which is a centralized system maintained by FEMA that tracks all individuals who
have applied for disaster assistance. According to FEMA, NEMIS provides
insufficient information upon which to verify an individual’s primary residence
because it does not provide the length of occupancy, and the occupancy data may
be dated. For example, during an inspection, FEMA officials told us that NEMIS
identified an individual as residing in Texas, although the applicant had not lived
there for 10 years.

While checking multiple data sources listed in the SOP is a more reliable process
than relying on NEMIS, it is more time-consuming and may not provide
conclusive evidence of a borrower’s primary residence. For example, borrowers
may not be listed in voter registration records if they did not register to vote, or in
the homestead exemption data base if they did not file for homestead exemption.
Consequently, ODA will need to identify a more reliable method of confirming
applicant primary residency. For example, ODA may want to consider using
Choice Point or reports from credit bureaus, which provide residency information.

ODA Approved One Loan without Proof of Property Ownership

Verification of property ownership is an important internal control to help prevent
improper disbursement of disaster funds to individuals who may be attempting to
fraudulently qualify for disaster loans. Property deeds generally establish real
estate ownership and loan eligibility. According to SOP 50 30 5, when deeds are
not available, ODA may use: (1) reports of damaged property from FEMA;
(2) information from Choice Point or a similar data base of property owners;
(3) property titles; (4) recorded land installments or contracts; (5) wills; (6) court
documents; (7) affidavits from county officials; (8) property tax records;
(9) insurance policy documents; or (10) mortgage company records as proof of
property ownership.

While the loans reviewed generally were supported by property ownership
documentation, we identified one loan for $50,500 that was approved without
evidence that the borrower owned the property that he claimed as his primary
residence on his loan application. The borrower stated that he owned a mobile
home, but not the property upon which the home was located.

OTHER MATTERS

In addition to the eight loans that may have been inappropriately awarded, we
identified one loan that duplicated benefits received from a HUD Road Home
Grant. The HUD grant was for approximately $19,000, and was awarded after the
SBA loan was made to the borrower. After HUD notified ODA of the grant, ODA
did not request a remittance of the grant amount, as required. Consequently, SBA
                                                                                    6



did not get reimbursed, as required, for the HUD grant it inappropriately gave to
the loan recipient.

RECOMMENDATIONS

We recommended that the Chief, Executive Office of Disaster Strategic Planning
and Operations direct the Associate Administrator for Disaster Assistance to:

     1. Instruct loan officers to follow the SOP requirements for residency
        verification until a revised method is developed.

     2. Revise its current procedures for verifying an applicant’s primary
        residence to ensure that a more reliable method is used than that provided
        in the SOP. For example, ODA should consider using either Choice Point
        or other credit bureau databases.

     3. Request remittance from HUD for the approximately $19,000 associated
        with the Road Home Grant that duplicated disaster benefits awarded
        under the SBA loan.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On February 6, 2009, we provided a draft of the report to ODA for comment. On
March 6, 2009, ODA submitted its formal response, which is contained in its
entirety in Appendix II. On March 6, 2009, the Chief of the Executive Office of
Disaster Strategic Planning and Operations also submitted his endorsement of
ODA’s comments, which is shown in Appendix III. Management concurred with
recommendations 1 and 2 and partially concurred with recommendation 3. ODA,
however, disagreed with our interpretation of the primary residence requirements
stated in the SOP and with our findings on 17 of the 29 loans that were reported as
being made without adequate verification of the applicant’s primary residence.
Management’s comments and our evaluation of them are summarized in the
following paragraphs, listed by the headings in ODA’s response.
                                                                                   7




Management Comment 1 – The OIG’s interpretation of ODA’s requirements for
primary residence determinations is inaccurate.

Management stated that the OIG believes that ODA was required to check all
sources listed in SOP 50 30 5 when making a primary residence determination,
which is a misinterpretation of the SOP. Instead, ODA stated that any one of the
sources listed could possibly justify a primary residence determination. ODA
management also referred to subsection (f) of the SOP, which authorizes the use of
other similar sources that can be used, and advised that its reliance on NEMIS data
met the requirements of the SOP. Therefore, ODA believes the report is incorrect
in saying that ODA did not adequately verify primary residences on 83 percent of
the loans reviewed.

OIG Response

We disagree with management’s assessment of our findings. The audit report
does not state that all sources must be checked. Rather, the OIG looked for
documentation that could lead to a conclusion that the application related to a
borrower’s primary residence. ODA relied almost exclusively on NEMIS data,
even though according to FEMA, NEMIS only establishes occupancy and does not
show the length of occupancy needed to make a determination on primary
residence.

Management Comment 2 – Finding multiple properties on flood maps is not an
adequate basis for questioning the primary residence of loan applicants

Management stated that merely finding more than one address per applicant from
flood maps is not an adequate basis to question a borrower’s primary residence. A
more thorough review of each loan file is needed to fully understand the reason for
multiple properties being flood mapped.

Management also disagreed with 17 of the 29 residence verifications that were
identified as being inadequate primarily because the NEMIS database showed the
applicants had at one time occupied the residences claimed. After receiving our
draft report and in response to the exceptions found, ODA researched applicant
residences and provided our office with a spreadsheet showing additional sources
of information documenting the addresses of applicants at the time of loan
approval (provided in Appendix V).
                                                                                   8




OIG Response

Because flood mapping identifies multiple properties either owned or used as
addresses by the applicant, it serves as an indicator to alert the Agency to conduct
further research to confirm the primary residence of loan applicants. Therefore,
we agree that further research is needed, as management suggests, to establish the
applicant’s primary residence. However, when flood maps identified multiple
properties, ODA did not perform additional research to confirm that the property
claimed was the individual’s main residence. Instead, ODA relied solely on
NEMIS data, which shows occupancy, but not the length of time the applicant
occupied the property.

Based on the spreadsheet accompanying management’s response to the draft
report (shown in Appendix V), ODA acknowledged that it relied on NEMIS to
make the eligibility determinations. However, the spreadsheet also lists additional
sources of information on applicant residences, which incorrectly suggests that
these sources were checked at the time of the eligibility determination. This is not
true and very misleading. The additional sources of information were identified in
response to the draft report and were not used to verify residency at the time of
loan approval. We also wish to note that the majority of the applicants listed on
the spreadsheet provided only Post Office box address, which increases the risk of
fraud and elevates the need to verify where these individuals resided at the time of
the disaster. Provided below is our rationale for why the information ODA
provided was not sufficient to dispute our findings on the 17 loans:

   •	 Loan #8 – ODA did not adequately verify the applicant’s residence even
      though the address provided was a Post Office box. Credit bureau reports
      and Federal tax returns were not reviewed at the time of the eligibility
      determination. ODA claimed it relied on the address used for insurance
      recoveries, which was insufficient as individuals can have insurance on
      multiple properties.

   •	 Loan #9 – ODA’s eligibility determination was based on NEMIS, which
      does not establish length of residency. Other sources cited were not
      reviewed at the time of the eligibility determination.

   •	 Loan #11 – ODA’s determination was based solely on NEMIS.

   •	 Loan #12 – ODA’s determination was based on the driver’s license of one
      of the applicants. However, the applicants were husband and wife, who
      had separate addresses. Further, the DCMS loan file showed that the
      borrowers had received a Road Home grant to repair property they owned,
                                                                                   9



   while they presented themselves as renters for the disaster loan. Therefore, 

   there were red flags in the loan file that should have prompted ODA to 

   further research the applicants’ primary residence. [FOIA ex. 7(A) 

   ]. 


•	 Loan #13 – ODA made its determination based on the address used for
   insurance recoveries. However, because an individual can have multiple
   properties insured, this source was insufficient to establish the applicant’s
   primary residence.

•	 Loan #15 – ODA’s determination was based on NEMIS data, which was
   insufficient to establish the individual’s primary residence. The pay stub in
   the loan file showed a Post Office box address.

•	 Loan #16 – ODA made its determination based solely on NEMIS data.
   Other documents cited listed Post Office box addresses and were not
   considered in the eligibility determination.

•	 Loan #17 – ODA made its determination based solely on NEMIS data.

•	 Loan #18 – ODA relied on the applicant’s driver’s license which was not
   sufficient to show the length of time the individual resided at the address
   needed to establish the property as the applicant’s primary residence.

•	 Loan #19 – ODA made its determination based solely on NEMIS data.
   Other documents cited were not considered for loan approval, and all listed
   a Post Office box address.

•	 Loan #21 – ODA made its determination based solely on NEMIS data.
   Other documents cited were not analyzed at the time of loan approval.

•	 Loan # 22 – ODA approved the loan even though the applicant used a Post
   Office box address, which was also used on other documents that ODA
   researched. The death certificate for the applicant’s spouse showed the
   residence as being the address of the spouse in 2004; however, by itself the
   certificate does not demonstrate that the applicant lived there at the
   residence at the time of the disaster.

•	 Loan #23 – ODA made its determination based on NEMIS and insurance
   data. NEMIS is insufficient as a source as it does not show length of
   occupancy, and insurance documents are inadequate as individuals can
   insure multiple properties.
                                                                            10 




•	 Loan #24 – ODA approved the loan based on the Post Office box address
   and did not establish that the applicant lived in Grand Isle. In fact, the
   applicant also owned another property in Baton Rouge. Other documents
   that ODA researched after loan approval also disclosed a Post Office box
   address for the applicant.

•	 Loan #25 – ODA determined the applicant’s eligibility based solely on
   NEMIS data. ODA should have taken additional steps to verify the
   residence as the applicant claimed the damaged property was the primary
   residence, but had represented the property as a business when applying for
   two prior disaster loans.

•	 Loan # 26 – ODA considered the damaged property to be the applicant’s
   primary residence, even though the applicant reported it as a seasonal
   dwelling that he was staying in until his primary residence, which was
   damaged by an unrelated fire, was repaired. The damaged property could
   have been considered the applicant’s primary residence, if the applicant
   intended on permanently staying there; however the applicant informed
   ODA that it planned to move out of the damaged property once the primary
   residence was restored.

•	 Loan #28 – ODA made its determination based solely on NEMIS data.
                                                                                11 



Management Comment 3 - OIG Use of Commercial Services and External Web
Sites for Verification Purposes

Management questioned the OIG’s use of Louisiana voter registration and
homestead exemption databases because these sources, at the time of the review,
could have shown data that was different from what existed when ODA originally
processed the loans. According to ODA, the differences could have been due to
relocations, legitimate changes in primary residence, or other facts and
circumstances that may have occurred in the intervening years since loan approval.
Management also stated that loan officers did not have access to voter registration
and homestead exemption records while processing the Gulf Coast Hurricane
loans. ODA also believes that Choice Point and other credit bureau databases
verify ownership only, and not residency.

OIG Response

We agree with management that voter registration and homestead exemption
records are not the best sources to use for verifying an individual’s primary
residence, which is one of the audit findings. Because these sources do not
provide conclusive proof of residence, we recommended that SBA revise its SOP
to identify other sources, such as Choice Point or other credit bureau databases.
Since SBA’s SOP instructs loan officers to use these sources for verification, we
used them as well to determine whether addresses recorded in these databases
differed from that claimed by applicants. In doing so, we reviewed information
for the same time period in which the loans were processed. Therefore, ODA’s
concern that we relied on information that was different from that at the time of
loan approval is not valid.

Further, we believe management’s claim that loan officers did not have access to
the voter registration and homestead exemption databases illustrates that ODA did
not have proper controls in place to adequately safeguard taxpayer dollars.
Finally, if ODA did not believe that voter registration records and homestead data
were sufficient, we question why it believes that any one of these sources could be
used to justify the primary residence determination. Additionally, if loan officers
do not have access to these sources of data, we question why ODA listed them in
its SOP as sources that should be checked when determining eligibility. Further,
Choice Point and other credit bureau databases are simply suggested sources that
ODA may want to further research to determine whether they can be used to verify
an individual’s primary residence.
                                                                                    12 



Recommendation 1

Management Comments

Management agrees to instruct loan officers in the interim to follow the SOP
requirements for residency verification. ODA previously provided instructions
and training to all loan officers on the current SOP requirements to satisfy this
recommendation.

OIG Response

Management’s comments are partially responsive to the recommendation. We
commend ODA for issuing a memo (shown in Appendix IV) to loan processing
staff and conducting training. However, once ODA revises its method for
verifying primary residences as recommended, it should re-train loan officers and
notify our office that the action has been completed.

Recommendation 2

Management Comments

Management agrees to research alternative methods for determining and verifying
an applicant’s primary residence to see if a revised procedure would be more
reliable.

OIG Response

Management’s comments are not fully responsive to our recommendation since it
did not provide a target completion date or agree to inform our office of its
findings and decision.

Recommendation 3

Management Comments

Management agrees that there was an error in the duplicate benefit calculation.
ODA has requested the loan file from the servicing office in order to re-evaluate
loan eligibility in light of the grant information. ODA agrees to collect any
duplicate assistance from the appropriate party, which may be the borrower,
versus HUD.
                                                                                 13 



OIG Response

Management’s planned actions are responsive to the recommendation. However,
it did not provide a target completion date needed to consider its comments fully
responsive.

ACTIONS REQUIRED

We request that you submit written comments identifying (1) target completion
dates for all recommendations and (2) your actions proposed or taken in response
to recommendations 2 and 3. We would appreciate receiving your additional
comments within 15 days of the final report date.

We appreciate the courtesies and cooperation of the Chief, Executive Office of
Disaster Strategic Planning and Operations, the Office of Associate Administrator
for Disaster Assistance, and the DCMS Operations Center representatives during
the audit. If you have any questions concerning this report, please call me at (202)
205-[FOIA ex. 2] or Pamela Steele-Nelson, Director, Disaster Assistance Group,
at (202) 205-[FOIA ex. 2].
                                                                              14 




APPENDIX I 

         LISTING OF EXCEPTIONS FROM SAMPLE LOAN REVIEW

Number      Loan #          Approved Amount               Disbursed Amount


  1          [FOIA ex. 2]                 $ 155,900.00                 $      80,000.00

  2          [FOIA ex. 2]               $ 111,800.00                   $      72,500.00

  3          [FOIA ex. 2]               $ 150,000.00                   $     135,000.00

  4          [FOIA ex. 2]               $ 101,100.00                   $     101,100.00

  5          [FOIA ex. 2]               $     85,600.00                $      10,000.00

  6          [FOIA ex. 2]               $ 182,900.00                   $     109,000.00

  7          [FOIA ex. 2]               $     83,100.00                $      83,100.00

  8          [FOIA ex. 2]               $     33,800.00                $      33,800.00

  9          [FOIA ex. 2]               $     89,700.00                $      86,300.00

  10         [FOIA ex. 2]               $ 168,600.00                   $     119,500.00

  11         [FOIA ex. 2]               $     98,000.00                $      96,200.00

  12         [FOIA ex. 2]               $     40,000.00                $      20,000.00

  13         [FOIA ex. 2]               $     48,600.00                $      10,000.00

  14         [FOIA ex. 2]               $     48,100.00                $      10,000.00

  15         [FOIA ex. 2]               $ 128,300.00                   $     118,300.00

  16         [FOIA ex. 2]               $     90,600.00                $      66,900.00

  17         [FOIA ex. 2]               $     75,300.00                $      75,300.00

  18         [FOIA ex. 2]               $     80,900.00                $      80,900.00

  19         [FOIA ex. 2]               $ 150,000.00                   $      75,000.00

  20         [FOIA ex. 2]               $ 108,000.00                   $     108,000.00

  21         [FOIA ex. 2]               $     68,300.00                $      68,300.00

  22         [FOIA ex. 2]               $     23,000.00                $      10,000.00
                                                       15 



23   [FOIA ex. 2]          $   79,800.00          $    79,800.00

24   [FOIA ex. 2]          $ 202,200.00           $    86,000.00

25   [FOIA ex. 2]          $ 104,300.00           $    74,300.00

26   [FOIA ex. 2]          $ 187,700.00           $   137,900.00

27   [FOIA ex. 2]          $   68,800.00          $    50,500.00

28   [FOIA ex. 2]          $   97,000.00          $    76,100.00

29   [FOIA ex. 2]          $   81,400.00          $    81,400.00
                    $ 2,942,800.00         $ 2,155,200.00
                                                                                             16 

APPENDIX II. AGENCY RESPONSE 

                                 U.S. SMALL BUSINESS ADMINISTRATION

                                       WASHINGTON, D.C. 20416





                 Date:

    To:            Debra S. Ritt
                   Assistant Inspector General for Auditing

    Thru:          Steven G. Smith
                   Chief, EODSPO

    From:          Herbert L. Mitchell
                   Associate Administrator
                   Office of Disaster Assistance

    Subject:       OIG Draft Report – The Audit of Borrower Eligibility for Gulf Coast
                   Disaster Loans (Project No. 8407)

    We have reviewed the draft audit report regarding The Audit of Borrower Eligibility for
    Gulf Coast Disaster Loans. The objective of the audit was to determine whether the
    Small Business Administration (SBA) had controls in place to prevent ineligible
    applicants from receiving disaster loans for properties that were not their primary
    residences. The Office of Disaster Assistance (ODA) would like to thank the OIG for the
    opportunity to respond to the Draft Report.

    I. OIG’s interpretation of ODA’s SOP 50 30 5, specifically, paragraph 19, is not 

    accurate. 


    The audit report makes an erroneous conclusion as to what is required by a loan officer in
    determining primary residence eligibility. Contrary to the plain meaning of the language
    in this paragraph, it appears from the statements and conclusions in the audit that OIG is
    viewing Paragraph 19 as an all inclusive list requiring that all factors listed be present in
    order to find eligibility as a primary residence. This is evidenced by the third paragraph
    of the RESULTS IN BRIEF section of the draft report. The paragraph reads: “In
    determining primary residence eligibility, ODA did not follow policy guidance, which
    directs loan officers to check relevant homestead exemption databases, voter registration
    records, or Federal tax returns. Instead, ODA reviewed the National Emergency
                                                                                          17 



Management Information System (NEMIS), maintained by the Federal Emergency
Management Agency (FEMA), which shows only occupancy data, and may be dated.”

It s further evidenced by the fact that the report indicates that 29 out of 35 loans reviewed
or 83 percent did not include all the factors listed in Paragraph 19.

The SOP does not require all listed factors be applied to a primary residence eligibility
determination, nor is it an inclusive list of all factors that can be applied. Particularly in
section 19 a(2), guidelines are offered if a primary residence is not easily determined
from reviewing the information contained in the application processing file.

The SOP states:

19. 	   PRIMARY RESIDENCE ELIGIBILITY
        Although some applicants may have more than one residence, for SBA disaster
        loan eligibility purposes, an applicant can have only one primary residence [see
        limited exception at subparagraph 13.n.(2)].
        a. 	   Determination of a Primary Residence.
               (1) 	   For either a homeowner or a renter, a damaged residence (e.g.,
                       house, apartment, condominium, manufactured home, etc.) is
                       eligible only if it is the applicant's primary residence.
               (2) 	   Generally, every applicant has only one primary residence. This
                       becomes an eligibility issue when the applicant owns more than
                       one piece of real property, or rents more than one apartment or
                       home simultaneously. In these cases, the information in the loan
                       application package will frequently provide the necessary
                       explanations. For example, if an application indicates ownership
                       of two residences, but one of them is clearly substantiated by
                       Federal Income Tax Returns (FTR) as rental income property, no
                       further inquiry is necessary to establish the other home as the
                       primary residence. However, if you cannot readily determine
                       which is the applicant's primary residence use the following
                       factors.
                       (a) 	   An applicant has filed for homestead exemption or similar
                               filing in those states that permit these filings. Similarly, in
                               some tax jurisdictions, an applicant's home may be taxed at
                               a preferred rate based on owner-occupancy status, which
                               confirms primary residence status.
                       (b) 	   Address used for voting purposes.
                       (c) 	   Address used for identifying the school district to which
                               children are assigned.
                       (d) 	   Address used on FTR.
                                                                                        18 



                      (e)     The residence used the greatest percentage of the year.
                      (f)     Other similar factors.

Any one of these factors can contribute to, or fully justify, a primary residence
determination. In addition, sub-section (f) authorizes the use of “Other similar factors”
which guidance and training to loan officers defines as including FEMA NEMIS Reports
(which verifies both ownership and occupancy).

The inclusion of sub-section (f) in the list, and the very nature of disaster lending, makes
a conclusion that the SOP requires all of the factors to be applied to a primary residence
determination inappropriate. That sub-section (f) invites the identification of other
factors, and the fact that the availability of the data on listed factors will vary greatly
from among the over 55 jurisdictions in which ODA makes loans, is indicative of the
paragraph’s meaning to offer options for making use of available information to make a
determination.

In addition, in the Loan Officer Home Loan Processing Module, SBA instructs Loan
Officers to utilize NEMIS for determining primary residences.

II. It appears that the Legend of Exception provided by the OIG concludes that
because several of the accounts reviewed had multiple properties flood mapped, that
this should have been an indicator of eligibility problems. This is an incorrect
assumption.

Paragraph 51 of the Disaster Assistance Program SOP requires the flood mapping of
relocation properties purchased after the disaster, temporary addresses if personal
property funds are being allowed, and additional collateral properties (including
businesses if the RE is unavailable or not owned by the applicant). Accordingly, merely
finding more than one address, per application, that was subject to flood mapping is not a
basis for drawing the conclusion that the primary residence was in question. To fully
understand the reason for multiple properties being flood mapped, a more thorough
review of each file must be completed. For example, of the files audited, ten properties
were flood mapped because they were temporary addresses; five properties were
determined to be properties the borrowers were relocating to; and seven of the properties
were additional addresses owned by the applicants; and one was a commercial property
used as additional collateral.

III. OIG Use of Commercial Services and External Web Sites for Verification
Purposes

In conducting this audit the OIG used residence addresses reported in the Louisiana voter
registration and homestead exemption databases. It is possible that the results that the
OIG received from these sources at the time of their review would have been different
from when ODA originally processed these loans. Reasons for any such differences could
                                                                                         19 



include: relocations, legitimate changes of primary residence or other facts and
circumstances that may have occurred in the intervening years since approval.

Additionally, ODA loan officers did not have access to these databases while processing
the Gulf Coast Hurricane files.

OIG also suggests that ODA utilize Choice Point or Equifax credit bureau databases. It is
ODA’s understanding that these databases merely verify ownership, not residency.
FEMA, through NEMIS, currently utilizes Choice Point as part of their identity
ownership verification check and to confirm address verification data.

The expectation that this data should have contributed to the initial eligibility decision is
speculative. Also the conclusions made based upon findings in evidence when the audit
was completed versus the time of application are of questionable value and relevance.

ODA knows the importance of determining eligibility for the disaster loan program. Our
Processing and Disbursement Center (PDC) has recently taken the following steps to help
address how loan officers establish primary residence eligibility:

   1.	 Issued Application Processing Memo #08-13, Primary Residence Determination
       dated December 17, 2008 was issued to PDC Loan Processing Staff.

   2.	 Conducted Eligibility Training on February 11, 2009, at the PDC with
       approximately 260 loan officers attending to review, in part, How to Determine
       Primary Residence. The training included:

                     -	 Primary Residence Eligibility, Paragraph 19, SOP
                     -	 Ineligible Applicants/Property, Paragraph 15 and 32, SOP
                     -	 Review of Application Processing Memo #08-13, Primary
                        Residence Determination
                     -	 Indicators of possible Primary Residence eligibility issues for
                        Home Loans (Spotting and reconciling conflicting indicators).
                     -	 Factors to consider if you cannot readily determine primary
                        residence under Paragraph 19, SOP.
                     -	 SOP Paragraph 88 b and c, Eligibility for Renters, and
                        Establishing Real Estate Eligibility for Unsecured Loans.

As part of this response, ODA is also including two attachments:

       Attachment 1 –Legend of Exception Excel spreadsheet that includes a
       detailed response to each specific exception noted in the OIG findings for
       each application number. Of this sampling ODA has agreed with 12 and
       disagreed with 17 of OIG’s determinations.

       Attachment 2 – copy of PDC Application Processing Memo #08-13, titled
       “Primary Residence Determination” dated December 17, 2008.
                                                                                       20 



OIG RECOMMENDATIONS AND AGENCY RESPONSE

       1.	   Instruct loan officers to follow the SOP requirements for residency
             verification until a revised method is developed.
             ODA Response: ODA agrees to instruct the loan officers to follow the SOP
             requirements for residency verification. ODA has previously provided
             instructions and training to all loan officers of the current requirements of
             the SOP in this matter (memo attached).

       2.	   Revise its current procedures for verifying an applicant’s primary residence
             to ensure that a more reliable method is used than that provided in the SOP.
             For example, ODA should consider using either Choice Point or Equifax
             databases.

             ODA Response:       ODA agrees to research alternative methods of
             determining and verifying an applicant’s primary residence to see if a
             revised procedure would be more reliable.

       3.	   Request remittance from HUD for the $19,000 associated with the Road
             Home grant that duplicated disaster benefits awarded under the SBA loan.

             ODA Response: ODA partially agrees. ODA agrees that there was an error
             in the DOB calculation. ODA has requested the loan file from the servicing
             office in order to re-evaluate the eligibility and grant information. ODA
             agrees to collect any duplicated assistance from the appropriate party, which
             may be the borrower, not HUD.




[FOIA ex. 2]- Audit of Borrower Eligibility for Gulf Coast Disaster Loans response final
draft
[FOIA ex. 2]
APPENDIX III. ENDORSEMENT OF AGENCY RESPONSE 

                                                                                      21 



                            U.S. SMALL BUSINESS ADMINISTRATION

                                  WASHINGTON, D.C. 20416





       Date: 	           March 5, 2009
       To: 	             Debra S. Ritt
                         Assistant Inspector General for Auditing
       From:	            Steven G. Smith
                         Chief, Executive Office of Disaster Strategic Planning
                         and Operations
       Subject: 	        OIG Draft Report — The Audit of Borrower Eligibility
                         for Gulf Coast Disaster Loans (Project No. 8407)

       I have reviewed the draft report regarding the Audit of Borrower
       Eligibility for Gulf Coast Disaster Loans and the response from the Office
       of Disaster Assistance. The ODA response is complete and on point. In
       the conduct of this audit it appears that OIG made assumptions that were
       not in accordance with SOP and then audited to these assumptions rather
       than to SOP. If auditors disagree with the soundness of the SOP itself, an
       explanation as to why, and a recommendation to review and justify the
       SOP is warranted.

       As it is currently presented the draft report generates a misleading
       conclusion that ODA did not verify residency on 83% of loans when in
       fact residency for many of these loans was verified in compliance with
       SBA policy

       I recommend against the release of this report with the finding as currently
       presented.

       EODSPO will work with ODA to implement the recommendations in this
       report and to insure a more comprehensive and statistically valid annual
       quality assurance review that will include a residency verification
       component.

       In addition to the corrective steps outlined in the ODA response, my office
       and ODA are continuously exploring means to automate data searches
       within the Disaster Credit Management System with the twofold goal of
       increasing loan processing throughput during surge conditions such as
       created by the 2005 Gulf hurricanes and improving the accuracy of the
                                                                       22 



data employed during underwriting. Your suggestions regarding Choice
Point and other databases will be factored into this search.


Attachments.

Copy to:
Acting Administrator
Chief of Staff
Associate Administrator Disaster Assistance
                                     23 


APPENDIX IV. AP MEMORANDUM 08-13 

24 

